("~
~~f-
       DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Inspector General



                                                                                 Region IX
                                                                                 Office of Audit Services
                                                                                 90 - yth Street, Suite 3-650
            29 2009                                                              San Francisco, CA 94103



   Report Number: A-09-09-00054

   Mr. Toby Douglas
   Chief Deputy Director of Health Care Programs
   California Department of Health Care Services
   1500 Capitol Avenue, MS 2001
   Sacramento, California 95814

   Dear Mr. Douglas:

   Enclosed is the U.S. Department of Health and Human Services (HHS), Office oflnspector
   General (OIG), final report entitled "Review of Medicaid Credit Balances at Pioneers Memorial
   Healthcare District as of December 31, 2008." We will forward a copy of this report to the HHS
   action official noted on the following page for review and any action deemed necessary.

   The HHS action official will make final determination as to actions taken on all matters reported.
   We request that you respond to this official within 30 days from the date of this letter. Your
   response should present any comments or additional information that you believe may have a
   bearing on the final determination.

   Pursuant to the Freedom oflnformation Act, 5 U.S.C. § 552, OIG reports generally are made
   available to the public to the extent that information in the report is not subject to exemptions in
   the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

   If you have any questions or comments about this report, please do not hesitate to contact Alice
   Norwood, Audit Manager, at (415) 437-8360 or through email at Alice.Norwood@oig.hhs.gov,
   or contact Lorrali Herrera, Senior Auditor, at (619) 557-6131, extension 230, or through email at
   Lorrali.Herrera@oig.hhs.gov. Please refer to report number A-09-09-00054 in all
   correspondence.

                                                  Sincerely,



                                          X:~~   Regional Inspector General
                                                  for Audit Services


   Enclosure
Page 2 - Mr. Toby Douglas


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services, HHS
233 North Michigan Avenue, Suite 600
Chicago, Illinois 6060 I
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





          REVIEW OF 

  MEDICAID CREDIT BALANCES 

    AT PIONEERS MEMORIAL 

    HEALTHCARE DISTRICT 

   AS OF DECEMBER 31, 2008 





                    Daniel R. Levinson

                     Inspector General 


                        June 2009 

                      A-09-09-00054

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices 


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers Medicaid.

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or allowable costs,
resulting in an overpayment. Credit balances may also occur when a provider receives payments
for the same services from the Medicaid program and another third-party payer. In such cases,
the provider should return the overpayment to the Medicaid program, which is the payer of last
resort.

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: “. . . when an
overpayment is discovered . . . the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. . . . [T]he adjustment in the Federal payment shall be
made at the end of the 60 days, whether or not recovery was made.”

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions state that
it is the provider’s responsibility to maintain an effective system to prevent, detect in timely
fashion, and take proper corrective action for Medicaid overpayments. In addition, providers are
required to report outstanding credit balances as part of their annual cost report submissions and
refund any overpayments when the State agency settles the cost reports.

Pioneers Memorial Healthcare District (Pioneers) is a public entity located in Brawley,
California, and operates an acute care facility and a rural health clinic. In addition, Pioneers
operated two outpatient clinics that were closed in 2008. Pioneers reported that it was
reimbursed by the State agency approximately $14.3 million for Medicaid services during
calendar year 2008.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in Pioneers’
accounting records as of December 31, 2008, for inpatient and outpatient services represented
overpayments that Pioneers should have returned to the Medicaid program.




                                                 i
SUMMARY OF FINDING

As of December 31, 2008, Pioneers’ Medicaid accounts with credit balances included
151 overpayments totaling $32,818 ($16,409 Federal share) that had not been returned to the
Medicaid program. Of the 151 accounts with Medicaid overpayments, 59 accounts had credit
balances of $100 or more. For these accounts, the ages of the overpayments ranged from
1 day to over 730 days. Pioneers did not return the majority of overpayments to the State agency
because Pioneers follows State Medicaid cost report instructions. Those instructions require the
provider to refund overpayments when the State agency examines credit balances and audits the
cost report for final settlement, not when the provider submits the cost report.

RECOMMENDATION

We recommend that the State agency refund to the Federal Government $16,409 (Federal share)
in Medicaid overpayments to Pioneers for inpatient and outpatient services.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendation. The
State agency’s comments are included in their entirety as the Appendix.




                                              ii
                                                  TABLE OF CONTENTS


                                                                                                                             Page

INTRODUCTION................................................................................................................1


          BACKGROUND .......................................................................................................1 

              Medicaid Program..........................................................................................1 

              Federal and State Requirements.....................................................................1 

              Pioneers Memorial Healthcare District..........................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2 

               Objective ........................................................................................................2 

               Scope..............................................................................................................2 

               Methodology ..................................................................................................2 


FINDING AND RECOMMENDATION...........................................................................3 


          OUTSTANDING CREDIT BALANCE ACCOUNTS WITH MEDICAID 

           OVERPAYMENTS ................................................................................................3 


          RECOMMENDATION .............................................................................................4 


          STATE AGENCY COMMENTS..............................................................................4 


APPENDIX

          STATE AGENCY COMMENTS




                                                                   iii
                                            INTRODUCTION


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers Medicaid.

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or allowable costs,
resulting in an overpayment. Credit balances may also occur when a provider receives payments
for the same services from the Medicaid program and another third-party payer. In such cases,
the provider should return the overpayment to the Medicaid program, which is the payer of last
resort.

Federal and State Requirements

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: “. . . when an
overpayment is discovered . . . the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. . . . [T]he adjustment in the Federal payment shall be
made at the end of the 60 days, whether or not recovery was made.”

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions state that
it is the provider’s responsibility to maintain an effective system to prevent, detect in timely
fashion, and take proper corrective action for Medicaid overpayments. In addition, providers are
required to report outstanding credit balances as part of their annual cost report submissions and
refund any overpayments when the State agency settles the cost reports. Providers must submit
their annual Medicaid cost reports within 150 days after the end of the provider fiscal year.
Pursuant to section 14170(a)(1) of the California Welfare and Institutions Code, the State agency
has 3 years after the provider’s fiscal year or the date of the submission, whichever is later, to
audit or review the cost report.

Pioneers Memorial Healthcare District

Pioneers Memorial Healthcare District (Pioneers) is a public entity located in Brawley,
California, and operates an acute care facility and a rural health clinic. In addition, Pioneers
operated two outpatient clinics that were closed in 2008. Pioneers reported that it was



                                                  1

reimbursed by the State agency approximately $14.3 million for Medicaid services during
calendar year 2008.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in Pioneers’
accounting records as of December 31, 2008, for inpatient and outpatient services represented
overpayments that Pioneers should have returned to the Medicaid program.

Scope

Pioneers’ inpatient and outpatient accounting records contained 375 Medicaid accounts with
credit balances totaling $45,151 as of December 31, 2008. We reviewed 342 outpatient accounts
totaling $24,202 and 33 inpatient accounts totaling $20,949. Of the 375 accounts, 151 included
Medicaid overpayments due to the State agency.

Our objective did not require an understanding or assessment of the complete internal control
system at Pioneers. We limited our review of internal controls to obtaining an understanding of
the policies and procedures that Pioneers used to review credit balances and report overpayments
to the State Medicaid program.

We performed our fieldwork at Pioneers’ facilities in Brawley, California, from January through
May 2009.

Methodology

To accomplish our objective, we:

   •	 reviewed Federal and State requirements pertaining to Medicaid credit balances and
      overpayments;

   •	 reviewed Pioneers’ policies and procedures for reviewing credit balances and reporting
      overpayments to the State agency;

   •	 traced Pioneers’ December 31, 2008, total credit balances to the accounts receivable
      records and traced the accounts receivable records to the trial balance;

   •	 identified Pioneers’ Medicaid credit balances from its accounting records and reconciled
      the Medicaid credit balances to Pioneers’ Medicaid credit balances overpayment report as
      of December 31, 2008;

   •	 reviewed Pioneers’ accounting records for accounts with credit balances of $100 or more,
      including patient payment data, Medicaid claim forms and remittance advices, patient
      accounts receivable detail, and additional supporting documentation;



                                               2

   •	 reviewed Pioneers’ Medicaid credit balances overpayment report for accounts with credit
      balances of less than $100;

   •	 calculated the Federal share of overpayments based on the Federal medical assistance
      percentage rate of 50 percent; and

   •	 coordinated our audit with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

As of December 31, 2008, Pioneers’ Medicaid accounts with credit balances included
151 overpayments totaling $32,818 ($16,409 Federal share) that had not been returned to the
Medicaid program.

OUTSTANDING CREDIT BALANCE ACCOUNTS WITH MEDICAID
OVERPAYMENTS

As of December 31, 2008, Pioneers’ Medicaid accounts with credit balances included
151 overpayments totaling $32,818 ($16,409 Federal share) that had not been returned to the
Medicaid program. Of the 151 accounts with Medicaid overpayments, 59 accounts had credit
balances of $100 or more. For these accounts, the ages of the overpayments ranged from 1 day
to over 730 days, as the following table summarizes.

                       Ages of Overpayments as of December 31, 2008
                      (Accounts With Credit Balances of $100 or More)

                                                    Overpayment            Federal
                              No. of Accounts
              Days                                    Amount                Share
              1–60                   8                       $988               $494
              61–180                 11                      8,394             4,197
              181–365                16                      5,395             2,697
              366–730                18                     11,657             5,829
              > 730                   6                      1,070               535
              Total                  59                    $27,504           $13,752

Pioneers did not return the majority of overpayments to the State agency because Pioneers
follows State Medicaid cost report instructions. Those instructions require the provider to refund
overpayments when the State agency examines credit balances and audits the cost report for final
settlement, not when the provider submits the cost report.


                                                3
RECOMMENDATION

We recommend that the State agency refund to the Federal Government $16,409 (Federal share)
in Medicaid overpayments to Pioneers for inpatient and outpatient services.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendation. The
State agency’s comments are included in their entirety as the Appendix.




                                             4

APPENDIX

APPENDIX
 Page 1 of 3

APPENDIX
 Page 2 of 3

APPENDIX
 Page 3 of 3

